OIG Investigative Reports, DISD Employee Arrested on Charges in Federal Indictment
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
United States Attorney
Northern District of Texas
FOR IMMEDIATE RELEASE:
September 8, 2006
1100 Commerce St., 3rd Fl.
Dallas, Texas 75242-1699 CONTACT:
Telephone (214) 659-8600
Fax (214) 767-0978
Website: http://www.usdoj.gov/usao/txs
DISD Employee Arrested on Charges in Federal Indictment
Marsha August Ollison, an employee of the Dallas Independent School District,
(DISD) was arrested this morning on charges outlined in a federal indictment
that was returned by a grand jury in Dallas earlier this week, and unsealed
today, announced United States Attorney Richard B. Roper. Agents with the Federal
Bureau of Investigation arrested Ollison at her home in The Colony, Texas, without
incident. She will appear this afternoon before United States Magistrate Judge
Wm. F. Sanderson, Jr. for her initial appearance.
U.S. Attorney Roper praised the investigative efforts of the Federal Bureau
of Investigation and the U.S. Department of Education - Office of Inspector
General, and stated that the investigation is ongoing.
The indictment charges Ollison, age 43, with three counts of Theft from an
Organization Receiving Federal Funds, in violation of Title 18, United States
Code, Section 666(a)(1)(A). If convicted on all charges, Ollison faces a maximum
statutory sentence of 30 years imprisonment, a $750,000.00 fine, and restitution.
According to the indictment, Ollison was an agent of the Dallas Independent
School District (DISD), working as an employee in the administrative office.
DISD issued credit cards, also known as procurement cards (P-Cards) for use
by DISD employees and DISD funds were used to pay for purchases made with P-Cards.
DISD employees, including Ollison, were instructed in a Procurement Card Manual
that P-Cards were "for district purchases only." In fact, DISD employees, including
Ollison, signed Procurement Cardholder Agreement Forms that stated, "I understand
that under no circumstances will I use the procurement card to make personal
purchases, either for others, or myself."
The indictment alleges that during 2004, 2005 and 2006, Ollison embezzled and
stole property valued at $15,000 or more by purchasing numerous personal items
for her own use and for the use of another person with a P-Card issued to her
by DISD.
An indictment is an accusation by a federal grand jury and a defendant is entitled
to the presumption of innocence unless proven guilty.
The case is being prosecuted by Assistant United States Attorney Lynn Hastings.
Top
Printable view
Share this page
Last Modified: 09/11/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov